                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             III NORTH CANAL. SUITE 940 

                                                               CHICAGO. ILLINOIS 60606 


                                                                   PAX: (312) 353-0244 

    Audit 	                                                                                                                                  Investigatio.n
(312) 886-6503 	                                                                                                                            (312) 353-7891


              MANAGEMENT INFORMATION REPORT
              STATE AND LOCAL NO. 03-02                                                                  SEP 18 2003

              TO: 	                Jack Martin 

                                   Chief Financial Officer 



              FROM:


              SUBJECT: 	           Audit ofthe Department's Ability to Identify and Monitor High-Risk
                                   Contracts
                                   Control Number ED-OIG/X05-D0022

              The purpose of this memorandum is to inform you of the results of our work while
              auditing the Department's ability to identify and monitor high-risk contracts. The
              objective of our audit was to determine whether selected Department program offices
              designate contracts as high-risk and, if so, adequately monitor those contracts. Step 260
              of the Department's 2002-2003 Annual Plan states "Review the Department's contract
              monit()ring process to evaluate its ability to identify and monitor high-risk contracts."
              The Department does not define a high-risk contract or provide guidelines for program
              offices to use in monitoring high-risk contracts. Because the Department does not define
              a high-risk contract, we terminated our audit.

              Department of Education Directive OCFO:2-108, "Contract Monitoring for Program
              Officials," dated January 12, 1987, suggests that contract characteristics such as a cost­
              type, a technically complex project, large dollar size, or contractors with a history of
              performance or management problems may require increased monitoring. However, the
              Directive does not describe these characteristics or define increased monitoring. For
              example, the Directive suggests a large dollar contract may require more monitoring, but
              does not define "large" or describe specific procedures necessary to adequately monitor a
              large dollar contract. In addition, the Directive does not require the program offices to
              increase the amount of monitoring performed on contracts with the characteristics
              mentioned above.

              We obtained a listing of the Department's active contracts as ofNovember 2002 from the
              Office of the Chief Financial. Officer's web site, and identified 15 program offices as
              having more than one active contract. We sent a questionnaire to the 15 program offices,
              and asked them how they define a high-risk contract and to describe any guidelines used
              to identify and monitor high-risk contracts. After receiving respoQ.ses to the



                      Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Mr. Jack Martin - Page Z                                                     State and Local No. 03-02


questionnaires, we requested additional information from officials in five program
offices. Specifically, we interviewed one or more officials from Federal Student Aid, the
Institute of Education Sciences, the Office of Elementary and Secondary Education, 1 and
the Office of the Under Secretary, and obtained additional written comments from the
Office of Special Education and Rehabilitative Services. The five program offices had
the most active contracts, with a dollar value that represented over 92 percent of active
contracts as ofNovember 2002.

With one exception, program offices did not identify high-risk contracts, and none had
procedures for monitoring such contracts. Several program offices described contract
characteristics that would require a higher level of monitoring; however, those
characteristics varied among program offices and were general, rather than specific. For
example, similar to the 1987 Directive, program offices stated that a large dollar contract
would require additional monitoring, but they did not provide a dollar limit used to make
this determination or a description of the additional monitoring necessary.

The Office of the Chief Financial Officer is currently updating the 1987 Directive. We
suggest that the revised Directive include a definition of a high-risk contract and specific
guidelines instead of general suggestions for identifying and monitoring high-risk
contracts. Doing so would promote consistent contract monitoring among the
Department's program offices, and provide a more efficient use of each program office's
resources and taxpayer's dollars. In addition, guidelines for monitoring high-risk
contracts could minimize wasted resources, higher costs, delays, and risk of fraud.

We performed our field work at our headquarters and regipnal offices from May through
July 2003. Our audit work was performed in accordance with generally accepted
government auditing standards appropriate to the scope of audit described.

We thank you for yoUr response to the draft of this memo that concurs with our·
suggestion. A copy is included as an attachment. No further response from your office is
necessary regarding the information contained herein. If you would like to discuss the
information presented in this memorandum or obtain additional information, please
contact me at (312) 886-6503.


Attachment




1 The Office ofElementary and Secondary Education has not provided us with a management
representation letter, therefore we cannot be sure its representative answered our questions fully and
provided all requested documents.
                                                                                                          Attachment



                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF THE CHIEF FINANCIAL OFFICER

                                                                          THE CHIEF FINANCIAL OFFICER



                                              SEP.    to,    2003 .                                      ,',   '




TO 	                        Richard J. Dowd
                            Regional Inspector General for Audit

FROM                        Jack Martin)dJfPit:
SUBJECT 	                   Draft Management Information Report, Audit ofthe Department's
                            Ability to Identify and Monitor High-Risk Contracts
                            Control Number ED.:OIG1X05-D0022


This memorandum responds to the Office of the Inspector General (OIG) subject Draft
Management Information Report, dated August 7, 2003. The OIG fieldwork was
performed between May and July 2003. The OIG found that the Department does not
define a high-risk contract or provide guidelines for program offices to use in monitoring
high-risk contracts. As a result, the OIG terminated the audit.

To address this issue, the OIG recommends that the revised ACS Directive, Contract
Monitoring for Program Officials, include a definition of a high-risk contract and specific
guidelines instead of general suggestions for identifying and monitoring high-risk
contracts.

OCFO concurs with your recommendation. Based on our preliminary research thus far,
we have been unable to precisely define a high-risk contract, as there appears to be no
standard definition available; and, that determining an individual contract's risk level
involves making a judgment after assessing a contract's risk factors. However,OCFQ
will continue its research and incorporate sufficient language in the ACS Directive to
address this issue consistent with federal policy and practices.

Thank you for the opportunity to respond to this draft audit.




                                400 MARYLAND AVE., S.W., WASHINGTON, D.C. 20202-4300
                                                         www.ed.gov

        Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
